Michael L. Rains
Attorney at Law
MRains@RLSlawyers.com

March 2, 2021
VIA ELECTRONIC FILING & FEDERAL EXPRESS
Clerk of the Court
United States Supreme Court
1 First Street, NE
Washington, DC 20543
Re:

City of Hayward, et al. v. Jessie Lee Jetmore Stoddard-Nunez
Supreme Court Case No.: 20-1006 – Request by Amici Curiae to Lodge NonRecord Material Pursuant to Rule 32(3)

Dear Clerk of the Court:
Pursuant to Supreme Court Rule 32(3)1, please accept this letter as a request by Amici
Curiae to lodge non-record material to assist the Court’s review of the Brief of Amici Curiae in
support of the Petition for Writ of Certiorari in the above-captioned matter.
2

Amici propose to lodge the following materials, which may not be readily available to the
Court:
(1) Audrey Honig, PhD & William J. Lewinski, PhD, A Survey of
the Research on Human Factors Related to Lethal Force
Encounters: Implications for Law Enforcement Training,
Tactics, and Testimony, 8(4) Law Enforcement Executive
Forum 129, 141 (July 2008);
(2) William J. Lewinski, PhD & Christa Redmann, New
Developments in Understanding the Behavior Science Factors
1

Rule 32(3) states: “Any party or amicus curiae desiring to lodge non-record material with the
Clerk must set out in a letter, served on all parties, a description of the material proposed for
lodging and the reasons why the non-record material may properly be considered by the Court.
The material proposed for lodging may not be submitted until and unless requested by the
Clerk.”
2

Peace Officers’ Research Association of California, PORAC Legal Defense Fund, San
Bernardino Sheriffs’ Employee Benefit Association, Oakland Police Officers’ Association,
Fresno Police Officers’ Association, San Francisco Police Officers’ Association, Association of
Los Angeles Deputy Sheriffs.
2300 Contra Costa Boulevard │ Suite 500 │ Pleasant Hill, CA 94523 │ T 925.609.1699 │ F 925.609.1690
ENCINO | FRESNO | LOS ANGELES | ONTARIO | PLEASANT HILL | SACRAMENTO
SAN FRANCISCO | SANTA MONICA | TRUCKEE

www.RLSlawyers.com

United States Supreme Court Clerk
Re:
Request by Amici Curiae to Lodge Non-Record Material Pursuant to Rule 32(3)
March 2, 2021
Page 2
in the “Stop Shooting” Response, 9(4) Law Enforcement
Executive Forum 35, 37 (October 2009) (“Lewinski 2009”);
(3) Sarah Shomstein & Steven Yantis, Control of Attention Shifts
between Vision and Audition in Human Cortex, 24(47) The
Journal of Neuroscience, 10702, 10706 (November 24, 2004)
(“Shomstein 2004”);
(4) William J. Lewinski, PhD, William B. Hudson, PhD & Jennifer
L. Dysterheft, MS, 14(2) Police Officer Reaction Time to Start
and Stop Shooting: The Influence of Decision-Making and
Pattern Recognition, Law Enforcement Executive Forum 1
(2014) (“Lewinski 2014”), and;
(5) Marc Green, “How Long Does it Take to Stop?” Methodological
Analysis of Driver Perception-Brake Times, 2(3) Transportation
Human Factors, 195 (2000) (“Green 2000”).
In support of the physiological limitations discussed in the Brief, Amici Curiae have cited
to the above materials, which reflect the opinions, analyses, and findings of recognized experts in
their respective fields.
Respectfully submitted,
RAINS LUCIA STERN
ST. PHALLE & SILVER, PC
/s/ Michael S. Rains
Michael L. Rains
MLR:msv
cc:

Michael S. Lawson, City Attorney, City of Hayward (Attorney for Petitioner)
Joseph E. Brick, Assistant City Attorney, City of Hayward (Attorney for Petitioner)
Michael L. Fox, Duane Morris LLP (Attorney for Petitioner)
Terrance J. Evans, Duane Morris LLP (Attorney for Petitioner)
C. Todd Norris, Duane Morris LLP (Attorney for Petitioner)
Sean Patterson, Duane Morris LLP (Attorney for Petitioner)
John L. Burris, Law Offices of John L. Burris (Attorney for Respondent)
Ayana C. Curry, Law Offices of John L. Burris (Attorney for Respondent)
Adante Pointer, Pointer & Buelna, LLP (Attorney for Respondent)
Patrick Buelna, Pointer & Buelna, LLP (Attorney for Respondent)

